Nicholas J. Bronni
Solicitor General

Direct Dial: (501) 682-6302
nicholas.bronni@arkansasag.gov

July 23, 2021
Hon. Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Braun v. Burke, No. 21-10

Dear Mr. Harris:
I write on behalf of Respondent Bill Bryant to request a 15-day extension of the deadline
for filing a brief in opposition to the petition for a writ of certiorari in this matter. The response
is currently due on August 6, 2021. With this requested extension, the response would be due on
August 23, 2021. Petitioner Lori Braun and separate Respondent Brian Ray Burke do not
oppose this request.
A 15-day extension is reasonable and necessary because of other professional obligations
and deadlines. Additionally, the Solicitor General Unit of the Arkansas Attorney General’s
Office only recently assumed responsibility for this matter and will require additional time to
become sufficiently familiar with it to prepare a response to the petition for certiorari.
Sincerely,
/s/ Nicholas J. Bronni
Nicholas J. Bronni

cc: Michael Aaron Avery, mavery@suffolk.edu, Counsel for Petitioner; Brian W. Ray,
brian@ccrlaw.com, Counsel for Respondent Brian Ray Burke.

323 Center Street, Suite 200, Little Rock, Arkansas 72201
Office: (501) 682-2007 | Fax: (501) 682-8084

